<html>
<title> - OPEN HEARING TO CONSIDER THE NOMINATION OF PETER M. THOMSON TO BE THE INSPECTOR GENERAL OF THE CENTRAL INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 116-468]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-468

                OPEN HEARING TO CONSIDER THE NOMINATION
                OF PETER M. THOMSON TO BE THE INSPECTOR
                  GENERAL OF THE CENTRAL INTELLIGENCE
                                 AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, JUNE 24, 2020

                               __________

      Printed for the use of the Select Committee on Intelligence
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-700 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
        
        
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 MARCO RUBIO, Florida, Acting Chairman
                MARK R. WARNER, Virginia, Vice Chairman

RICHARD BURR, North Carolina         DIANNE FEINSTEIN, California
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas                   MICHAEL F. BENNET, Colorado
BEN SASSE, Nebraska
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                   JAMES INHOFE, Oklahoma, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                             JUNE 24, 2020

                           OPENING STATEMENTS

Rubio, Hon. Marco, Acting Chairman, a U.S. Senator from Florida..     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     2

                               WITNESSES

John Kennedy, a U.S. Senator from Louisiana......................     3
John Cornyn, a U.S. Senator from Texas...........................     4
Thomson, Peter M., nominated to be Inspector General, Central 
  Intelligence Agency............................................     6
    Prepared statement...........................................     9

                         SUPPLEMENTAL MATERIAL

Letter from Hon. Bill Cassidy, a U.S. Senator from Louisiana.....     5
    Questionnaire for Completion by Presidential Nominees........    28
    Additional Prehearing Questions..............................    46
    Posthearing Questions for the Record.........................    66

 
                      OPEN HEARING TO CONSIDER THE
                  NOMINATION OF PETER M. THOMSON TO BE
                      THE INSPECTOR GENERAL OF THE
                      CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                        WEDNESDAY, JUNE 24, 2020

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room SR-325, Russell Senate Office Building, Hon. Marco Rubio 
(Acting Chairman of the Committee) presiding.
    Present: Senators Rubio, Warner, Burr, Risch, Collins, 
Blunt, Cotton, Cornyn, Sasse, Wyden, Heinrich, King, Harris, 
and Bennet.

OPENING STATEMENT OF HON. MARCO RUBIO, ACTING CHAIRMAN, A U.S. 
                      SENATOR FROM FLORIDA

    Acting Chairman Rubio. The hearing will come to order.
    I would like to welcome our witness this morning, Peter 
Thomson. Mr. Thomson is the President's nominee to be the next 
Inspector General of the CIA. Congratulations on your 
nomination.
    I would like to start by recognizing your family that you 
brought with you today. I understand you have your wife 
Patricia with you and your daughter Kalin. Welcome to both of 
you. Patricia, this is as much your day as it is Peter's, and 
we are all grateful for the support, the patience, the 
encouragement that you have no doubt provided him in helping 
him to get to this day. And this is most certainly a 
professional achievement that you should both take pride in.
    Our goal in conducting this hearing is to enable this 
Committee to have a thoughtful consideration of Mr. Thomson's 
qualifications to be the next Inspector General of the CIA. Mr. 
Thomson has provided written responses to questions from the 
Committee from its Members, and this morning Members will be 
able to ask any additional questions they have and hear the 
answer directly from the nominee.
    Mr. Thomson is a double graduate of Tulane University, 
receiving his law degree in 1983. He spent 23 years as a 
Federal prosecutor for the Department of Justice as an 
Assistant U.S. Attorney for the Eastern District of Louisiana. 
During his time with DOJ, Peter served on special assignment 
with the National Security Agency. Since 2011, he has been in 
private practice in New Orleans, where he has done dozens of 
criminal trials at the Federal and state court level, and he 
has litigated at the appellate level as well. In addition, he 
spent 20 years as an uncompensated adjunct professor at 
Tulane's law school teaching trial advocacy and giving back to 
his alma mater.
    Mr. Thomson, you have been asked to lead a statutorily 
created office that is responsible for independent oversight of 
the Central Intelligence Agency. If confirmed, you will conduct 
audits, inspections, investigations, and reviews of CIA 
programs and operations. You will play a very important role in 
ensuring that the CIA carries out its mandate efficiently, 
accountably, and always according to the law. The satisfaction 
of this Committee's oversight mandate will, at times, require 
transparency and responsiveness from you and your office. We 
may ask difficult questions of you and your staff, and we 
expect honest, complete, and timely answers.
    At the same time, we will also want you to feel free to 
come to the Committee with situations that warrant our 
attention and our partnership. I look forward to hearing from 
you today, to ultimately supporting your nomination, and 
ensuring its consideration without delay. I want to thank you 
for being here, for your years of service to our country, and 
for your willingness to resume that service, and we all look 
forward to your testimony.
    Now I recognize the Vice Chairman.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Well, thank you, Mr. Chairman, and 
welcome Mr. Thomson. It is good to kind of see you again in 
this awfully large room and let me add to the Chairman's 
comments in terms of congratulations on your nomination to 
serve as Inspector General of the CIA.
    The job of an Inspector General is critical to the 
effective operation of any Agency. Should you be confirmed, you 
will hold one of the most vital roles at the CIA and within the 
whole Intelligence Community because independent and impartial 
Inspectors General help to ensure that there is robust 
oversight of an agency that by necessity undertakes its most 
important and effective work in secrecy. Now, we all know by 
statute, the CIA Inspector General is expressly mandated to 
report not only to the CIA Director, but to this Committee and 
is specifically made accountable to Congress.
    This is necessary to ensure that we are able to conduct 
robust oversight of the CIA and be made aware of any 
significant problems and deficiencies. This Committee relies 
upon the Inspectors General of the intelligence agencies to 
ensure the IC organizations are using taxpayer dollars wisely, 
conducting their activities within the rule and spirit of the 
law, and supporting and protecting whistleblowers who report 
waste, fraud, and abuse.
    Unfortunately, what we have seen from this President and 
this Administration convinces me that the independence of the 
Inspectors General is under grave threat. We have seen the 
President attack without justification the brave men and women 
of the IC simply because they were doing what Americans 
expected them to do, telling truth to power.
    This is because, for this President, the truth is very 
often unwelcome, and its bearers have borne the consequences:
    DNI Coats fired.
    Deputy DNI Sue Gordon fired.
    Acting DNI Maguire fired.
    Intelligence Community Inspector General Atkinson fired--
fired for no reason other than doing his job and reporting to 
Congress, as he was legally mandated to do, reporting the 
serious complaints of a whistleblower.
    Unfortunately, we have seen this Administration go after 
other independent Inspectors General as well. At the State 
Department, at HHS, at the Defense Department, who have issued 
reports unwelcome in the White House or because they undertook 
investigations that were embarrassing to the President and his 
allies. But this is precisely why we have Inspectors General. 
Not many like to be called in front of you, but your 
independence and doggedness are what help keep fraud, waste, 
abuse, and malfeasance in check.
    So, I will be looking today for you to explain why we can 
trust you to be independent and how you'll go about your 
responsibilities, how will you assure the men and women of the 
CIA that if they bring forward a complaint using legitimate 
channels they will be protected against retaliation?
    What are your redlines if you become aware of abuse or 
asked to undertake actions that are not in keeping with what I 
hope will be your expectations and our expectations of you?
    If confirmed, you will be the first Senate-confirmed IG at 
the CIA in over five years. You will have a difficult job to 
ensure your independence, to reassure whistleblowers and to 
take over an office that has been vacant for so long.
    Mr. Thomson, again, thank you for being here today and 
agreeing to serve in this critical role. I look forward to 
today's discussion.
    Thank you, Mr. Chairman.
    Acting Chairman Rubio. Thank you.
    Mr. Thomson, I understand you are going to be having two of 
our Senate colleagues present introductions on your behalf. We 
are actually in a pretty famous room. A lot of important 
hearings in our Nation's history have occurred in these halls, 
and so it is appropriate that Senator Kennedy, whose name is on 
the wall though it is not named after him, will be one of your 
presenters. So, welcome to your home, Senator Kennedy.
    Senator Kennedy. Are you ready for me?
    Acting Chairman Rubio. We are always ready for you, Sir.

 STATEMENT OF HON. JOHN KENNEDY, A U.S. SENATOR FROM LOUISIANA

    Senator Kennedy. Thank you, Mr. Chairman. It is an honor to 
be in front of the Intelligence Committee. I have never been in 
front of the Intelligence Committee. I am going to assume I am 
being bugged, so I will choose my words carefully.
    It is a delight for me to introduce and recommend 
enthusiastically and unconditionally Mr. Peter Thomson for this 
important post. I agree with so much of what Senator Warner 
said. We live in cynical times. People correctly or incorrectly 
don't trust government. I understand that. I have been in and 
out of government for, I don't know, 25, 30 years and I always 
tell my constituents that on occasion, as bad as it looks from 
the outside, you ought to see it from the inside.
    And Inspectors General help balance that. Not only do they 
report impropriety, they address issues of the appearance of 
impropriety, and both are important. Just recently--I happen to 
sit on the Judiciary Committee--and I was very proud of the 
work done by Inspector General Horowitz at the Justice 
Department. I am convinced had it not been for General Horowitz 
we never would have known about the abuses of the FISA process 
at the FBI, committed by a small group of people of the FBI. So 
this is an important job.
    Senator Rubio did, as usual, a superb job of welcoming 
Peter, and also Patricia and Kalin, his daughter. Peter brings 
a very unique background to this position. Right now, he works 
at a law firm called Stone Pigman in New Orleans. I'm not going 
to tell you it's the best law firm in Louisiana. We've got a 
lot of good ones, but the list--they don't hire dummies--and 
the list that Stone Pigman is on, it doesn't take very long to 
call the role.
    He heads the white-collar criminal defense practice there 
and is also involved in information security practices. He has 
been a special assistant to the Chief, Advanced Network 
Operations at the National Security Agency. He served for years 
as an Assistant United States Attorney. He has expertise in not 
just criminal defense but extradition matters. He is assisting 
corporations with the Foreign Corrupt Practices Act. He has 
litigated civil matters, regulatory matters, and administrative 
cases. As Marco mentioned, he has also been an adjunct 
professor for years, I think, at Tulane, Peter, is that right?
    Mr. Thomson. Yes, Sir.
    Senator Kennedy. But let me just say a personal note before 
I conclude.
    Peter is a mature and serious person. He is not an 
especially good politician, but I don't think that's what this 
job requires. He is more of an intellectual, as I think you 
will see this morning. He exercises power intelligently and 
non-emotionally, and he has extraordinarily able and good 
judgment. And I think that is what we want in an Inspector 
General, particularly at the CIA.
    So again, it is my pleasure to be here today, and for what 
it's worth, Mr. Thomson has my highest possible recommendation, 
and I appreciate your time.
    Acting Chairman Rubio. Thank you, and thank you for that 
presentation.
    Senator Cornyn, I understand you will be presenting Senator 
Cassidy's remarks.

  OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. Senator Cassidy 
did send a letter recommending the nominee, and he asked me to 
read it. If you will indulge me just for a few minutes, and 
then I would ask consent that it be made part of the record.
    [The letter from Senator Cassidy follows:]

     statement of hon. bill cassidy, a u.s. senator from louisiana
    Dear Chairman Rubio and Vice Chairman Warner: I am writing today to 
express my strong support for Peter Thomson to become Inspector General 
of the Central Intelligence Agency. Peter has a long and distinguished 
career in public service. His 23-year career as a Federal prosecutor in 
Louisiana gives him deep, first-hand experience rooting out fraud, 
waste, and abuse and wrongdoing. His peers attest to his competency and 
his character. On May 1, 35 of his colleagues in Louisiana law 
enforcement signed a letter citing Peter's high ethical standards, work 
ethic, patriotism, legal competence, and reputation for integrity. I 
share their sentiment.
    Peter's career has included overseeing the use of government funds, 
which makes him well-suited for the role of Inspector General. In the 
aftermath of Hurricane Katrina, Peter worked on the Katrina Fraud Task 
Force. Catastrophes can bring out the best in people, and I witnessed 
acts of sacrifice, courage, and generosity in the midst of tragedy.
    However, some seek to take advantage of bad situations. Peter kept 
them accountable, and he prosecuted the first significant public 
corruption case following the disaster. Not content to serve only in 
government, Peter took time to teach as well. He spent 20 years as the 
associate adjunct professor of law at Tulane University School of Law, 
where he mentored young people just starting their careers.
    In both, his personal and professional life, Peter has shown us the 
conduct we hope to see in all our public servants. I ask for your 
support in the nomination of my fellow Louisianan and friend. Should 
you need further information on my support, feel free to contact me.
    [Signed] Dr. Bill Cassidy, United States Senator.

    [End of Senator Cassidy's statement for the record.]
    Acting Chairman Rubio. Thank you and without objection that 
will be in our record. Mr. Thomson before you proceed with your 
statement if I could ask you to please stand and raise your 
right hand.
    [Witness stands.]
    Do you solemnly swear to give this Committee the truth, the 
full truth, and nothing but the truth, so help you, God?
    Mr. Thomson. I do.
    Acting Chairman Rubio. Thank you. You can be seated.
    Mr. Thomson, before we move to your statement, I want to 
ask you the five standard questions this Committee poses to 
each nominee who appears before us. They can be answered with a 
simple yes or no, if you prefer, for the record.
    Do you agree to appear before the Committee here or in 
other venues when invited?
    Mr. Thomson. Yes, I do, Sir.
    Acting Chairman Rubio. If confirmed, do you agree to send 
officials from your office to appear before the Committee and 
designated staff when invited?
    Mr. Thomson. I do, Sir.
    Acting Chairman Rubio. Do you agree to provide documents or 
any other materials requested by the Committee in order for it 
to carry out its oversight and legislative responsibilities?
    Mr. Thomson. Yes, I do, Sir.
    Acting Chairman Rubio. Will you ensure that your office and 
your staff provides such material to the Committee when 
requested?
    Mr. Thomson. I do, Sir.
    Acting Chairman Rubio. And do you agree to inform and fully 
brief to the fullest extent possible all Members of this 
Committee of intelligence activities and covert actions rather 
than only the Chairman and the Vice Chairman?
    Mr. Thomson. Yes, Sir.
    Acting Chairman Rubio. Thank you very much. We'll now 
proceed to your opening statement, after which I'll recognize 
Members by seniority for up to five minutes each.
    Mr. Thomson, the floor is yours.

    OPENING STATEMENT OF PETER M. THOMSON, NOMINATED TO BE 
         INSPECTOR GENERAL, CENTRAL INTELLIGENCE AGENCY

    Mr. Thomson. Thank you very much.
    Chairman Rubio, Vice Chairman Warner, and distinguished 
Members of the Committee: I am honored to be here today as the 
President's nominee to be the Inspector General of the Central 
Intelligence Agency.
    I would like first to thank Senators Bill Cassidy and John 
Kennedy for introducing me and for the kind words. I also would 
like to thank President Trump and CIA Director Gina Haspel for 
the confidence they have placed in me with regard to this 
important position.
    Further, I appreciate and I am deeply grateful to those 
individuals who wrote or signed letters in support of my 
nomination.
    And last but certainly not least, joining me here today are 
my dear wife Patricia and my daughter Kalin. I wish to thank 
them for their patience and unwavering love and support 
throughout this process.
    Although I spent the majority of my government career in 
the U.S. Department of Justice, I have always held a deep 
respect and a profound admiration for the men and women of the 
CIA and the important work they do in preempting threats to our 
Nation. The CIA has the critical responsibility of collecting, 
analyzing, evaluating, and disseminating accurate and timely 
foreign intelligence to policy makers and consumers. And as you 
know, the CIA has the responsibility of conducting covert 
actions when necessary.
    I believe that officers who serve at the Agency, including 
those who serve at the Office of Inspector General, regardless 
of background, regardless of political affiliation, regardless 
of philosophical beliefs, are united at their core by a deep 
love of our Country and a strong desire and commitment to 
protect the American people. So for me, it is truly a deep 
honor, one beyond words, to be considered for such an important 
position within the CIA. And to be given the opportunity, if 
confirmed, to lead the dedicated and patriotic officers of the 
Office of the Inspector General.
    Growing up in New Orleans, I was blessed to have devoted 
and loving parents who taught me important values which are 
foundational requirements of an Inspector General. My mom grew 
up very poor, raised on a small farm on the banks of the 
Mississippi River. She was Sicilian, so I grew up eating lots 
of Italian food, but also spending lots of time at her family's 
farm, which we called the country.
    My mom had an exceptionally strong constitution and was 
known to fiercely defend right in the face of wrong. She taught 
me the importance of family and loyalty and how to pick your 
friends, which had everything to do with character. And she 
taught me the importance of standing firm in one's righteous 
convictions. I didn't know it then, but she was teaching me how 
to speak truth to power.
    Now, my father also grew up poor, raised by his widowed 
mother in New Orleans. At age 21, following the attack on Pearl 
Harbor, he enlisted in the U.S. Army Air Corps and was trained 
to be a heavy bomber pilot. He flew 35 combat missions over 
Germany in a B-17 Flying Fortress, which was named ``Old Blood 
and Guts,'' fighting the malignant human evils of his 
generation. After being honorably discharged, he went to Tulane 
law school with the help of the GI bill. Graduated Order of the 
Coif, a high honor, and became a successful attorney.
    My father taught me and modeled many of the same values as 
my mom. My father also kindled in me an interest in law. He 
taught me about the rule of law and why it must be respected. 
And without a doubt my strong sense of patriotism derives from 
my father's sacrifice during World War II.
    I tell you this to offer a glimpse into my roots in order 
to give you and the American people some insight as to how I 
will perform as Inspector General of the CIA. If I am 
confirmed, I feel the principles and the values instilled in me 
by my parents--honesty, integrity, patriotism, speaking truth 
to power, the rule of law and standing firm in one's just 
convictions--together with my faith, will serve the CIA and the 
intelligence oversight committees and the American public well. 
It is my belief that those important principles absolutely must 
guide the work of the Inspector General's Office.
    There is another central requirement, probably the most 
important requirement of the Inspector General's Office. It is 
independence. Although the CIA Inspector General reports to the 
CIA Director, and reports to and is fully accountable to 
Congress, the IG's office must independently plan and execute 
all of its oversight work with regard to the Agency. The CIA 
enabling statute requires it.
    Independence in my view means that the work of the 
Inspector General must be performed in an unbiased and 
impartial manner, free of undue or inappropriate influences. By 
law, no one can force the Inspector General to alter its work 
product. Should I be confirmed, I can say with absolute 
confidence that doing the work of the IG in an unbiased and 
impartial manner will be my top priority.
    Although independence is crucial to the proper functioning 
of the Office and essential to its integrity, the Inspector 
General must also strike a balance between that independence on 
one hand and on the other, working cooperatively and 
productively with Agency leadership and this Committee. In my 
view, in addition to all of the IG's legal reporting 
requirements, a collaborative team approach within the Agency 
and with Congress, working together to make the Agency better 
is as important to the proper functioning of the Inspector 
General as is the requirement of independence.
    Even so, to be clear, the buck stops at the door of the IG. 
Together with my character and values, I believe my 
professional background and corresponding skill sets have 
prepared me for this position. During my 23-year career with 
the U.S. Department of Justice, I obtained broad investigative 
and prosecutorial experience handling a wide variety of cases 
including investigations involving fraud, national security, 
violent crimes, domestic and international drug trafficking, 
racketeering, and political corruption.
    I held a top-secret security clearance for approximately 15 
years which allowed me to work on some sensitive matters.
    I also coordinated many multi-Agency task force 
investigations. I worked with a myriad of Federal, state, and 
local agencies, including Offices of Inspectors General and 
countless confidential informants and cooperating individuals, 
rooting out crime, fraud, and abuse in a wide variety of 
contexts.
    In the immediate aftermath of Hurricane Katrina, I was 
detailed to the FBI where I worked on the Katrina Fraud Task 
Force, which targeted all kinds of Katrina-related fraud and 
corruption. Ten years later, I had the opportunity to work on 
detail at the National Security Agency, where, as part of my 
duties, I provided legal guidance on certain signals 
intelligence and information assurance operations of the NSA.
    After retiring from the Justice Department, I entered 
private legal practice where I continued to handle criminal 
matters as well as civil matters and internal investigations 
involving fraud including, most recently, a case involving a $1 
billion bank failure. My experience as a Federal prosecutor has 
a direct impact on how I will approach the job as CIA Inspector 
General. But perhaps none more important than my extensive work 
with numerous confidential informants and cooperators 
throughout my career.
    Based on this experience, I have a deep understanding of 
the importance of protecting CIA employees and contractors who 
report wrongdoing. I believe that one of the most important if 
not the most important program of any Inspector General's 
office is the whistleblower program. As Inspector General, if 
confirmed, I will work with Agency leadership to maintain and 
strengthen a culture of confidence and trust for Agency 
employees and contractors who have information exposing fraud, 
waste, abuse, violation of law, or other deficiencies or 
problems that should be corrected within the Agency.
    Finally, I'll conclude with a solemn promise before this 
Committee and the American public. If confirmed, I will protect 
the independence of the CIA Inspector General's office and 
approach all of its work with honesty and integrity in fairness 
and impartiality. If you entrust me with this critical role, I 
will look forward to working with this Committee to fulfill its 
oversight obligations of the CIA. Thank you for this 
opportunity. I look forward to your questions.
    [The prepared statement of Mr. Thomson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Acting Chairman Rubio. Thank you. And for the information 
of the Members, if anyone wishes to submit questions for the 
record after today's hearing, we ask that you do it by the 
close of business tomorrow.
    Mr. Thomson, I want to begin where you finished your 
comments. And the clear role and mandate on the creation of 
this Committee was to carry out consistent and vibrant 
oversight over the Intelligence Community and particularly over 
the Central Intelligence Agency. And to do that, we have to 
have timely access to intelligence. That's just crucial to 
having meaningful oversight.
    So if confirmed, and I think you've answered this already 
in that five questions set, but I wanted to re-ask it in a 
different way: If confirmed, can we be assured that you or your 
designees are going to keep us appropriately informed of any 
significant complaints that you receive in your office?
    Mr. Thomson. Absolutely, Senator.
    Acting Chairman Rubio. And let me just ask part of that 
question, will you provide the interview subjects and 
methodologies behind your finished reports and assessment?
    Mr. Thomson. I'm sorry, would you repeat the question?
    Acting Chairman Rubio. If asked by the Committee, if you 
inform us of such a significant complaint, will you also 
provide the interview subjects and methodologies behind your 
finished product and assessments?
    Mr. Thomson. Yes, Sir, to the extent that it meets the 
CIGIE standards. We will follow CIGIE standards and provide 
this Committee with everything that we're allowed to provide 
you with.
    Acting Chairman Rubio. Now, we've historically viewed the 
role that you've been nominated for as our partner in 
oversight, not as an adversary, but as a partner because we 
rely on the Inspector General to identify problems and to bring 
issues to this Committee's attention.
    So do we have your total commitment that if you are 
confirmed, you will keep this Committee fully and currently 
informed?
    Mr. Thomson. Absolutely, Senator.
    Acting Chairman Rubio. And how do you envision realizing 
that commitment you've just made?
    Mr. Thomson. Well first, Senator, we start with the law. We 
start with the statute, and the IG has a number of duties and 
responsibilities with regards to reporting to this Committee 
under the statute. If confirmed, I would take that very, very 
seriously and would follow the statute. I would look forward to 
working transparently with this Committee, cooperatively with 
this Committee, and doing everything we can to timely report 
semiannual reports. Any serious offenses will be brought to the 
attention of this Committee. As I said, we will provide you 
with all the information that we are allowed to provide you 
with.
    Acting Chairman Rubio. Now, let me briefly delve into the 
role that you've been nominated to fill. If you could share 
with us how do you view your approach will be to a situation; 
for example, where your legal analysis and conclusions differ 
from those of the CIA's General Counsel or the Intelligence 
Community Inspector General?
    Mr. Thomson. Sure. Well that might happen, Senator. So the 
Inspector General by law is required to have his or her own 
counsel. The Inspector General does have its own counsel 
presently.
    As Inspector General, I would rely 100 percent on--well, 
let me rephrase that. If there was a conflict, we would 
certainly consult with the General Counsel's Office at the 
Agency. But at the end of the day--and, you know, we could take 
the reviews into account--but at the end of the day, the 
judgment with regard to any legal matter falls squarely on the 
Inspector General, and we would exercise independent judgment 
and analysis with regard to that.
    Acting Chairman Rubio. How would you isolate yourself, or 
how do you intend to isolate yourself and your office, from the 
risk of perceived politicization?
    Mr. Thomson. Well, I think the best way to do that, 
Senator, is to be as independent as humanly possible, to follow 
the law, to certainly cooperate with the Agency, and to work 
collaboratively with Agency components, to work collaboratively 
with this Committee, to be transparent with this Committee, to 
report to this Committee.
    But I don't think the Inspector General's office needs to 
run around, you know, with a flag of independence. But I think, 
you know, we absolutely assert the independence in everything 
we do, whether it's through requesting information from the 
Agency--we would, you know, we would push back on that.
    For example, if we asked for information from the Agency 
and they were hesitant to give it or refused to give it, under 
the statute the IG is entitled to it. I would certainly take 
their views into account, but if I thought it was still 
important to pursue it, we would exercise our independence and 
still pursue that information.
    Acting Chairman Rubio. Thank you.
    Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Mr. Thomson, I'm going to go over some of the points that 
you made in your testimony. And at the outset, let me just say: 
in our meeting I was impressed by your demeanor. It's 
disappointing that I have to rehash some of these issues, but 
there's been such a litany of individuals in the Intelligence 
Community who've had, I guess, the audacity, I would say it was 
their duty to speak truth to power, and that fulfilling of 
their duty has cost them their jobs.
    So, you've addressed this in your opening testimony, but 
I'd like you again to spend a minute or two on the importance 
you feel of keeping the IG's office independent. And 
specifically, how will you maintain the CIA IG's independence?
    Mr. Thomson. Thank you very much for the question, Vice 
Chairman.
    I think I would start with explaining my values--and I know 
the values of some of the senior leadership in the IG's 
Office--and push those values down throughout the Inspector 
General's Office, particularly independence. But also that 
there is absolutely no room in the Inspector General's Office, 
and I don't think there should be any room in an intelligence 
agency or a law enforcement agency as well for any form of 
bias, any political agendas, personal agendas, are not welcome 
in an Inspector General's Office, would not be welcome in the 
CIA Inspector General's Office, if I'm confirmed, because I 
believe very strongly, drawing on my career as an Assistant 
U.S. Attorney and have a history of this, to accomplish all the 
work in an impartial and unbiased manner, and exercise 
independent judgment and objectivity. And so, if there's any 
pressure, any perceived pressure or any real pressure, that 
we're not going to succumb to that and we're always going to 
exercise independent judgment and do what we believe is lawful 
and follows the facts.
    And as I've I think said in my Senate questionnaire, you 
know, I was brought up under Lady Justice in the Justice 
Department. And with everything that I've ever been a part of, 
I've been pressured. I've, as an Assistant U.S. Attorney, 
received inquiries or letters from Congress. I have been pushed 
on hard by Special Agents in charge of certain agencies, by 
judges. And I've learned that you've got to maintain your 
position, listen to what they have to say, weigh it, you know, 
but make an independent judgment, not be bullied and not be 
pressured.
    So, I think pushing those values down to make sure 
everyone's on the same page with values, and then doing our 
work as we need to do in an independent fashion.
    Vice Chairman Warner. And Mr. Thomson, we discussed this 
when we met: If you did receive that undue pressure, 
inappropriate pressure, or were asked to do something that you 
felt didn't meet your moral beliefs or your belief of the 
independent role of the IG, what would you do?
    Mr. Thomson. Sure. Well, it would depend on the context and 
the pressure. But if it was undue pressure and serious undue 
pressure, I would do two things, Senator. I would consider it 
to be very inappropriate. I would inform the CIA Director's 
Office and I would inform this Committee.
    Vice Chairman Warner. Thank you.
    Mr. Thomson. If I thought, Senator, and let me add, if I 
thought there was any criminality involved, I would, as 
required, refer it to the Department of Justice.
    Vice Chairman Warner. You've also in your statement----
    Mr. Thomson. I'm sorry, Vice Chairman. I apologize.
    Vice Chairman Warner. You've also in your statement, I 
thought, made good points about the need to protect 
whistleblowers.
    Do you have a view on a whistleblower's right to remain 
anonymous?
    Mr. Thomson. Well, I can answer that in two parts. My 
personal view, you know, having dealt with so many confidential 
informants who've risked a lot--some risked their lives, you 
know, throughout investigations I've been a part of. Just 
personally, I absolutely would want to protect them. Under the 
law, the IG must protect them to the fullest extent that we 
can. And I would follow the law and I would follow my personal 
beliefs as well and draw upon my experience as a Federal 
prosecutor in protecting informants and cooperating 
individuals.
    Vice Chairman Warner. Thank you, Mr. Chairman. Thank you, 
Mr. Thomson.
    Acting Chairman Rubio. Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Mr. Thomson, the country is indeed fortunate that your 
nomination has come up. I think you're eminently qualified for 
the role of IG at the CIA. As the Chairman and the Vice 
Chairman have said, we are reliant on a very close relationship 
between the CIA IG and this Committee in our oversight 
responsibilities.
    And I think the most important part of your testimony was 
at the end, where you said: ``I will protect the independence 
of the CIA Inspector General and approach all its work with 
honesty, integrity, fairness, and impartiality.'' I don't think 
we can ask of an individual any more than that.
    So, I really am limited to one question. What do you 
believe is the scope of your responsibility as CIA IG?
    Mr. Thomson. The scope of my responsibility. Well, maybe 
I'll try to start broad and try to narrow in.
    In my view to begin with, I see the role of the CIA IG as 
to help make the agents of the CIA better through the 
independent work of the IG. But part of that is to be 
accountable. And certainly the IG has to report directly to the 
Director and be under the general supervision of the Director. 
And with regard to reporting to the Director, there are a 
number of requirements in the CIA IG statute that lay out the 
reporting requirements.
    Beyond that, I think of great importance, Senator, is the 
oversight role of this Committee and the House Intelligence 
Committee.
    So, the CIA is a secret organization, as you know. The 
activities, the programs, and operations of the Agency are 
entirely hidden from public view. And you, the Senators and the 
Representatives, all represent the people of the United States. 
And the only way that the people of the United States can see 
into the Agency and to provide oversight of the Agency is 
through the intelligence committees.
    So, part of the scope of my role is to work with the 
committees and in a sense, although still maintaining the 
independence of the IG and the importance of the independence, 
the IG can serve, through the lens of independence, as the eyes 
and ears of the Committee, so the American people, through 
their representatives, can provide oversight to the IG.
    Senator Burr. Do you believe that your responsibilities 
include the review of covert action?
    Mr. Thomson. Absolutely. So, our responsibilities would be 
to conduct--I mean, I wasn't going to quote the statute; I 
figured everybody knew the statute--we're going to perform 
audits and inspections and investigations and root out waste, 
fraud, abuse, and mismanagement and so forth through the 
audits, inspections, and investigations.
    Part of our duty is to make policy recommendations to the 
Director, to bring any serious problems that we see to the 
attention of the Director and this Committee. If urgent 
concerns are raised, to assess those under the law, provide 
that to the Director for submission to the Congress. So, all of 
that is part of the duties.
    Senator Burr. Thank you, Mr. Thomson.
    Mr. Thomson. Thank you.
    Senator Burr. I yield back.
    Acting Chairman Rubio. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Thomson, your nomination comes when Donald Trump is 
attacking the entire Inspector General and whistleblower system 
with a jaw-dropping theory that he can dump an Inspector 
General whenever he wants to without stating any reasons why. 
So, in my view, whether you will ignore that threat is at the 
heart of the confirmation process.
    So, the first question I want to ask involves legal 
determinations that you may have to make in your capacity, if 
confirmed. If your Inspector General attorney determines that 
laws have been broken and Bill Barr disagrees, what would you 
do?
    Mr. Thomson. So, make sure I understand the question. If 
the IG's counsel believes that a law has been broken----
    Senator Wyden. Correct.
    Mr. Thomson. And that's at odds with the Department of 
Justice----
    Senator Wyden. Bill Barr.
    Mr. Thomson. Okay. Can you give me the context of----
    Senator Wyden. Well----
    Mr. Thomson. This, the law being broken by who?
    Senator Wyden. Well, it has happened recently. But I think 
the question's pretty straightforward. Your counsel believes a 
law has been broken. Bill Barr disagrees. What would you do?
    Mr. Thomson. So, if it's within the jurisdiction of the 
Agency, or within the jurisdiction of the IG, and we are 
investigating something, and we investigate it and we find that 
a law has been broken, and it's a criminal law, we would refer 
that to the Department of Justice. It would be brought to the 
attention of this Committee, and it would be brought to the 
attention of the Director of the CIA.
    Senator Wyden. Now maybe we're making some headway. So, I 
just want to make sure that we're clear.
    Mr. Thomson. Yes.
    Senator Wyden. In the example that I gave, your lawyer 
thinks that laws have been broken. Bill Barr disagrees. You 
would, if confirmed, bring it to this Committee? You would 
inform us?
    Mr. Thomson. Well, Senator----
    Senator Wyden. That one's a yes or no.
    Mr. Thomson. Well, Senator, under the statute, if we 
determine that in the course of our investigation of something 
we have a right to investigate within our jurisdiction--
actually, even outside that--I think there's other reporting 
requirements even, outside being an IG if a criminal law is 
broken.
    We can't sit on our desk, you know. We have to see that 
it's attended to in an appropriate fashion. But if it's within 
the context of the IG's role, it is a criminal violation, 
that's reported to the Department of Justice and we would 
report that to the Director, and we would report that to the 
Committee.
    Senator Wyden. Okay, I think that was the answer I wanted 
to have, and I'm glad that we agree that you have an obligation 
to report it to the Committee.
    Let me ask a question about whistleblowers. The law states 
when the Inspector General determines that a whistleblower 
complaint is an urgent concern and transmits it to the Director 
of the CIA, the Director shall send the complaint to Congress 
within seven days.
    How are you going to make sure if confirmed that the CIA 
respects that law, and what would you do if she didn't do it?
    Mr. Thomson. So, to begin with, if confirmed, the CIA IG's 
office will absolutely respect that law. It is the CIA IG 
enabling statute and there are provisions of urgent concern, or 
address matters of urgent concern. We would respect it and we 
would, by law, we would follow the law and submit it to the 
Director. The Director has the option, I think, of disagreeing.
    If the Director were to disagree and not want to forward 
the urgent concern, and we had determined it was an urgent 
concern and we found it to be credible, then I think at that 
point we would still forward that complaint to this Committee 
with an explanation of why we made the determination. The CIA 
Director would, I am sure, also be able to provide comments and 
an explanation as to why he or she felt that it was not an 
urgent concern.
    Senator Wyden. So you would--and my time is up--you would 
send it to the Committee, though, in the example that I gave, 
because these are----
    Mr. Thomson. If we determined something was an urgent 
concern and it was reportable to this Committee as an urgent 
concern, but the Director of the CIA disagreed, it is my 
understanding under the law that we then are obliged or should 
provide that to this Committee. And then, you know, with 
comments, with an explanation.
    Senator Wyden. Thank you. Thank you, Mr. Chairman.
    Acting Chairman Rubio. Senator Risch.
    Senator Risch. Thank you. Thank you, Mr. Chairman.
    Mr. Thomson. May I add? Whatever we are going to do, I 
would have counsel. And however we proceed, we would absolutely 
follow the law.
    Senator Risch. Thank you. Thank you, Mr. Chairman.
    Mr. Thomson, having been on this Committee for as many 
years as I have, I've always been struck by the fact that the 
Community gets bogged down sometimes in its collection efforts, 
and loses sight of the fact that the purpose of collection is 
to get information to policymakers. Intelligence information in 
and of itself is worthless unless it's in the hands of people 
who can act on it and make policy judgments on it.
    Senator Rubio and I served on the Foreign Relations 
Committee, and I can tell you that there is no more important 
consumer of the information that the Intelligence Community 
develops than the Foreign Relations Committee. I want to remind 
you, and I remind everyone who comes here, the importance of 
seeing that that information gets in the appropriate hands, as 
opposed to just collecting it and then a report being written 
or being put in a file or something like that.
    So I hope that you will keep that in mind as you do your 
job, and remind those that you do deal with in the Community 
what the real purpose of collection of information is.
    And with that, Mr. Chairman, I have some other matters, but 
I'm going to take them up in a classified setting with the 
nominee. So thank you very much.
    Acting Chairman Rubio. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Mr. Thomson, in my view the best way to drain a swamp is to 
ensure that Inspectors General can just do their job. IGs are 
charged with rooting out waste, fraud, abuse, and protecting 
the rule of law. Yet, we've seen this President attack the 
independence of IG offices repeatedly.
    Given the President's treatment of IGs in this 
Administration, including the sacking of ICIG Michael Atkinson, 
who DNI Maguire said had, quote, done everything by the book, 
end quote, why do you believe it's possible to hold an IG 
position in this Administration and simultaneously speak truth 
to power?
    Mr. Thomson. Well, Senator, thank you for that question.
    So, you know, under the law as it's written, the President, 
no matter who the President is, has the right to fire Inspector 
Generals. He also has, you know, there's a requirement that you 
must provide reasons to this Committee 30 days out from the 
termination of that Inspector General.
    So, that's the law. What I can tell you is that there's 
nothing that has happened or could happen with regard to 
anything that could be perceived as an influence or potential 
influence or threat on the independence of the IG. I am going 
to do the work of the IG as I performed as an Assistant U.S. 
Attorney for 23 years, and I'm going to follow the facts no 
matter where they lead. I'm going to follow the law.
    And, you know, however things turn out is how they will 
turn out. I am not dissuaded and will not be dissuaded at all 
by any perceived undue influence from any source, Senator, not 
from a----
    Senator Heinrich. Mr. Thomson, we're running out of time 
here. So I'll take your answer and move on to a related 
question which is, you mentioned in your opening statement, you 
wrote about how your parents taught you how to speak truth to 
power, and we hear that phrase a lot on this Committee. 
Sometimes we hear it too much in confirmation hearings without 
seeing it in action as much as we would like.
    But nonetheless, I want to ask you specifically from your 
professional experience, what are some examples, some specific 
examples that you can share with the Committee, about when 
you've had to speak truth to power in your professional life?
    Mr. Thomson. Yes, Senator. Well, as a prosecutor, you know, 
I was faced on a number of occasions with special agents in 
charge, for example, that would disagree on how I may have 
evaluated a case. And, they would come talk to me. On some 
occasions, they would go to the United States Attorney. But I 
had to maintain my position and I did.
    I wasn't going to sacrifice the integrity or my judgment--
not that they were challenging the integrity, they weren't 
doing that--but my judgment on a case for any kind of pressure 
from an agent in charge, or agents. Or within my office, maybe 
managers might disagree. But I stood my ground and explained my 
position.
    Also, I've been before many Federal judges, dozens. You 
know, I'm not sure how many--maybe over hundreds of times 
before Federal judges, and I've had to speak truth to power to 
Federal judges on countless occasions.
    Senator Heinrich. Okay. Mr. Thomson, the President has 
suggested numerous times in numerous tweets and other 
statements that there is a deep state in our government. Do you 
share those concerns that there is a deep state, either at the 
CIA or within the Intelligence Community more broadly?
    Mr. Thomson. So, Senator, I honestly don't exactly know 
what is meant by deep state or the President's comments on deep 
state. I'm really not sure how to define that. And so I really 
can't answer that question. I really don't know how to answer 
that.
    I can say this, that whatever obstacles we would come 
across, whatever attempts to influence, whatever pushback we 
get, we are going to stand our ground. We're going to exercise 
independent judgment. We're going to act impartially, unbiased, 
and just pull from my career in how we handle--or how I handled 
cases as a prosecutor. Regardless of any influence of any deep 
state that may or may not exist.
    Senator Heinrich. Thank you, Mr. Chair.
    Acting Chairman Rubio. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Welcome, Mr. 
Thomson.
    The firing of the Inspectors General and the threats to 
expose the identities of whistleblowers may have had a chilling 
effect on the willingness of whistleblowers to come forward 
with allegations.
    What specific actions will you take to reassure CIA 
employees that they will be protected from reprisal, both 
within the Agency and outside of it, if they do expose 
wrongdoing?
    Mr. Thomson. Thank you, Senator. Very important. Very 
important question. I appreciate the question.
    So, in my view, one of the most important aspects about the 
whistleblower program is for the whistleblowers to have 
absolute trust and confidence in the system. When they don't 
have trust and confidence in the system, then it breaks down, 
right? It breaks down from our perspective. It breaks down from 
congressional oversight perspective. And then it also increases 
the possibility of things we don't want to have happen, like 
leaks.
    So a strong whistleblower program actually helps prevent 
leaks, Senator.
    But beyond that, to protect the whistleblowers, you know, 
we want to vigorously follow the law, number one, protect them 
to the fullest extent of the law. When whistleblowers come in 
or we engage people with bringing information, I would want to 
have the staff, myself and the staff, speak with them and talk 
about whether they want anonymity. Some may want anonymity, 
some may not. But the ones that do, we would do everything we 
could to protect them.
    The other thing I would do would be--well, I think training 
and outreach is very important. So when new employees are on-
boarded at the CIA, they go through lengthy training. And so I 
think it's very important to have a solid training program with 
whistleblowers to explain their rights and how they 
communicate, how they provide information.
    Also training to CIA managers with regard to the law. Also 
to work with CIA leadership to--and I don't know the culture 
right now, Senator--but whatever that culture is, I think I'd 
want to work with CIA leadership to try to strengthen the 
culture within the CIA, the way they look at CIA 
whistleblowers.
    So they're not looking at the process as a way to get 
somebody in trouble or a gotcha moment, but as a way that is 
something that you should do, that you have an obligation to 
do, and it's to make the Agency better. Not to try to destroy 
the Agency or harm the Agency or create a lack of confidence in 
the American public, but to make the Agency better.
    Senator Collins. Thank you. Let me ask you a specific 
question.
    Do you believe that Michael Atkinson as the Inspector 
General for the Intelligence Community should have notified 
this Committee about the whistleblower allegations regarding 
the President's interactions with Ukraine?
    Mr. Thomson. So with regard to that matter--if you bear 
with me on my answer--I don't know Michael Atkinson. I've never 
spoken with Michael Atkinson. I've never served in the ODNI. 
I'm aware of his career, his very respectful career, and I know 
he grew up--or I believe, from my understanding--he grew up at 
the Department of Justice.
    So unfortunately I don't know all the facts. I read a few 
things, but I don't really know all the facts. I believe 
there's some facts that are classified and what he was 
addressing was a completely different statute. So he was 
addressing the enabling statute for the ICIG and the language 
in the urgent concern part of the statute--there was a little 
bit of difference with regard to the IG, to the CIA IG, 
statute.
    So not knowing those facts, I find it difficult to weigh in 
on that. But what I can say, Senator, is that if we did receive 
information purportedly to be an urgent concern from a CIA 
employee or contractor, we would look at that very seriously. 
We would determine if it is a very serious or flagrant problem 
or abuse or a violation of law. We would weigh the 
prerequisites in the statute, whether it involves a CIA 
activity, and is involved in intelligence information. So if we 
determine that it does fall within or meet those prerequisites, 
and then as a completely separate matter, we'd have to 
determine if the information is credible. And if we did, then 
we would then forward that to the CIA Director for reporting to 
this Committee.
    Acting Chairman Rubio. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Mr. Thomson, I've been following this. I've been impressed. 
I've been impressed. I read your references, but you lost me in 
the answer to Senator Heinrich's question.
    Are you telling this Committee that you've lived in the 
United States for the last three years, read newspapers, 
participated in the practice of law, and you don't know the 
meaning of the term ``deep state''? The more accurate answer 
than that long rambling nonanswer you gave was: no.
    Tell us what you think. You're not helping yourself by 
obfuscating and avoiding these questions. You also avoided 
Senator Collins' question, which was exactly the right question 
and everybody in the country knows what happened to that case. 
It's a very simple question. Should that complaint had been 
forwarded to Congress, yes or no?
    Mr. Thomson. The complaint by Michael Atkinson?
    Senator King. The complaint. The whistleblower complaint.
    Mr. Thomson. The whistleblower complaint.
    Senator King. That was the basis of an impeachment hearing.
    Mr. Thomson. Right. Right.
    Senator King. Don't tell me you don't know all the facts. 
We know the essential facts. You know what the complaint was. 
Should that have been forwarded to Congress, yes or no?
    Mr. Thomson. Senator, I fully understand your concern and 
the importance----
    Senator King. Okay, you don't appear to want to answer. Let 
me move on. Were you interviewed by the President for this 
position?
    Mr. Thomson. The President of the United States?
    Senator King. Yes.
    Mr. Thomson. No, Sir.
    Senator King. You said, no?
    Mr. Thomson. Correct.
    Senator King. Were you interviewed by personnel at the 
White House?
    Mr. Thomson. The White House Counsel. Yes, Sir.
    Senator King. Was there ever any question that suggested to 
you any issue of loyalty or reminding you of your subservience 
to the President who was appointing you?
    Mr. Thomson. So, Senator, I'm going to answer that 
question. I will preface it. Generally conversations that I 
would have with the White House counsel I think are 
confidential. However, I can tell you----
    Senator King. What's the basis of that statement? What's 
the basis of this statement of what questions you were asked in 
terms of your suitability for this position?
    Mr. Thomson. It's my understanding, but I will answer your 
question.
    Senator King. Thank you
    Mr. Thomson. No one from the White House ever gave me any 
kind of a litmus test or loyalty test to the President at all.
    Senator King. Did they suggest that was a significant 
concern or question or issue?
    Mr. Thomson. No one.
    Senator King. Did the word loyalty ever arise in any of 
those conversations?
    Mr. Thomson. No one. I will tell you, Senator, no one at 
the White House ever gave me any, to my knowledge or--I never 
perceived any kind of loyalty test at all with regard to the 
President.
    Senator, let me let me answer this. I would absolutely, I 
would absolutely if confirmed do my job in an independent way. 
If any pressure was brought on me by the White House, then I 
would consider that to be absolutely inappropriate and----
    Senator King. Would you notify this Committee of that fact?
    Mr. Thomson. If I had pressure from the White House or any 
outside external source like that, I would notify the 
Committee.
    Senator King. Thank you.
    You understand that one of the critical important--I think 
the IG position is one of the most important in our government 
generally. But in this particular case, it's especially 
important because we're dealing with a secret Agency, which is 
an anomaly in a democracy.
    It doesn't have the usual watchdogs of the press or of 
interest groups or of outside people who know what's happening. 
Therefore, the position is especially, doubly important than it 
would be in the Department of Agriculture or another. Not to 
denigrate that, but that's a special role here.
    And also, the other pieces--the obligation as you've 
acknowledged--of reporting information to this Committee, 
because we're the only committee that follows what's going on 
in those agencies. So I hope you appreciate that this is an 
extremely important position and this President has made plain 
his desire to politicize the intelligence agencies and that he 
doesn't like the intelligence agencies. The Vice Chair read off 
the list of all the people that have been removed.
    I guess all you can do is tell me that you'll stand up to 
that, but I certainly hope that you will because it's important 
for the country. Whether it's this President--you may well be 
the IG for another President. Any President who was trying to 
influence the preparation of intelligence is harming themselves 
and harming the country.
    Will you commit unequivocally before this Committee to 
notify us of any such pressure and to resist any such pressure?
    Mr. Thomson. Senator, if any such pressure was brought on 
the IG's office to alter its product or how it would evaluate 
something, or from any other source, I would consider that very 
serious. I would report that to the CIA Director, I'm sure, and 
this Committee.
    And I will say, Senator, you're referring to you would hope 
that I would be independent and resist. You know, we really 
don't know one another, but if I'm confirmed, I think within a 
short period of time after working with me and working in my 
office, I think you would be absolutely convinced that I'm not 
going to give you--give in to any kind of undue inappropriate 
pressure, that I will always stand firm to my convictions. I 
can absolutely assure you of that. And I know anyone up here 
will tell you that.
    Senator King. Up to and including the likelihood of being, 
the possibility of being fired?
    Mr. Thomson. I'm sorry, I didn't hear you.
    Senator King. Up to and including the likelihood of being 
fired?
    Mr. Thomson. Senator, look, if I was fired for doing my job 
in a lawful way, in an appropriate way, then I would be fired.
    Senator King. Thank you. Thank you, Mr. Chairman.
    Acting Chairman Rubio. Senator Cotton.
    Senator Cotton. I'll answer Senator King's question very 
simply. That report from the so-called whistleblower should not 
have been forwarded to Congress because the law plainly says 
the Inspector General for the Director of National Intelligence 
deals with intelligence activities and a phone call between the 
President and the head of state is not an intelligence 
activity.
    And I raise that point not just to rebut what Senator King 
said, but to make the important point that he's making is that 
the Inspector General needs to stand for the rule of law, 
whether the rule of law comports with what a President wants or 
the rule of law comports with what the opposition party and the 
media wants.
    So Mr. Thomson, I will ask you this basic question. As the 
Inspector General, will you follow the law and uphold the rule 
of law?
    Mr. Thomson. Absolutely, Senator.
    Senator Cotton. Thank you.
    Let's turn to your experience in the U.S. Attorney's 
Office, which is long and extensive. You mentioned in your 
statement for the record and your papers that you had 
experience working with the NSA, the FBI, the CIA.
    Could you talk to us a little bit about how those 
experiences might prepare you for working as the Inspector 
General for the CIA, given the somewhat technical and often 
classified nature of material you'll be working with there?
    Mr. Thomson. Well, sure. You know, I do have some 
intelligence experience working at the NSA, and I think that's 
very transferable to the Agency. At the risk of repeating 
myself, which I try not to do, I think my experiences as an 
AUSA is one of the most important qualifications that I think I 
bring to the job in dealing with confidential informants and 
knowing how to handle sensitive information being brought in. 
So I would draw heavily on my experience as an Assistant U.S. 
Attorney.
    I'd also draw my experience as an attorney in private 
practice, in analyzing matters. I'm not sure what else you were 
asking.
    Senator Cotton. Well, let me ask you one more general 
question. This not so much about being an Inspector General for 
an intelligence agency, but something I've noticed with 
Inspectors General across all departments, especially when they 
come in with your experiences. As an Assistant U.S. Attorney, 
you had tools like subpoenas and grand juries. The Inspectors 
General lack those.
    Can you talk to us about how you will approach the job 
without those powerful law enforcement tools to get the 
information you need to ensure that the officers and employees 
of the CIA are following the law and doing the right thing?
    Mr. Thomson. Right, so that is something that I would miss, 
certainly--the ability to work with grand juries and issue 
grand jury subpoenas and require testimony. I think it's very 
important to work with CIA leadership to gain their full 
support. I feel that that support's there with Director Haspel, 
and I believe that we would work very well together. I think 
the IG's office and the Director's Office, I think, would work 
well together.
    I think, you know, getting information, no matter which IG 
office you're in, which agency, which department--just, you 
know, my experience in the government, all shops can be a 
little bit protective about what they have. It's a little 
deeper. Not referencing deep state, but it's a little deeper in 
the Agency where you have a lot of compartmented programs. Some 
are even more deeply compartmented than others. And so there's 
always--not always--but there could be some pushback on that. 
And so that is something that we would work diligently through 
that to obtain the information that we need, and we would ask 
the support from the Director's Office, I know, if we need to.
    We'd also work with this Committee. So if there's any 
issues obtaining information and it got to be serious, or 
actually if we were refused I would come to this Committee and 
ask for Committee help as well.
    Senator Cotton. Thank you.
    The final thing I want to say is--it's not really a 
question because I don't expect you to have thought through 
this issue very carefully, yet. But I just want to flag it for 
you as you go into the job. With the pace of technological 
change and the evolution of cutting-edge, off-the-shelf 
commercial technologies, there could be a tension to balance 
between contracting officers who are trying to move quickly to 
adopt suitable commercial off-the-shelf solutions to 
technological challenges, on the one hand, and somewhat 
antiquated or rigid bureaucratic contracting roles on the other 
hand.
    I think that's a tension that all agencies need to manage, 
but this one in particular, and one that I would just ask you 
to be mindful of, too, whenever you're looking at contracting 
matters and what CIA can do to improve contracting in these 
situations. Thank you.
    Mr. Thomson. Yes, Sir.
    Acting Chairman Rubio. Mr. Thomson, we're about to close 
here, so I just have three very quick questions.
    The first is to touch on what's been asked already before, 
and just to leave it abundantly clear in the record.
    At any time in this process, from the moment this first 
became a possibility to the interviews you've had up to today, 
has anyone ever told you, implied, or made you understand in 
any way that you were being nominated for this position to 
protect the President from embarrassment, or to use it as a way 
to target people who--somebody maybe who was hostile?
    Mr. Thomson. No, absolutely, absolutely. Senator, let me 
just say if that had been part of the process, you wouldn't see 
me here today, Senator.
    Acting Chairman Rubio. Well, that was my follow-up 
question. I take it from your testimony today and the review of 
your record and everything that you've done, that it sounds to 
me like you would never, it appears, and I think logically, 
endanger your over-37-year career of public service and private 
practice for any reason. I think that's a fair assessment. Is 
that correct?
    Mr. Thomson. No, absolutely. I actually have thought of the 
same thing, Chairman Rubio. You know, I've got a 35-year career 
and I've I think built up a reputation of being a straight 
shooter and fair, and following the law and not giving in to 
pressure or in doing anything wrong or inappropriate. I'm not 
going to at all give that up at this stage of my life or for 
this position.
    I would never risk--to me, reputation is very important. 
It's one of the only things that we carry with us. It means 
everything to me as does the rule of law. So no, I would never 
do anything to risk that.
    Acting Chairman Rubio. Well, I want to thank you for the 
time you've given us here today. This is important. As you 
know, we'll move quickly to get a vote here from this Committee 
so we can process this important nomination. And I appreciate 
your family's time as well being here today and your 
willingness to serve, as I said.
    You have a very successful private practice, and it sounds 
like one that you were looking forward to continuing, but the 
opportunity to serve your country became available and you took 
it up once again. And so we thank you.
    I'll remind the Members what I said at the outset, that if 
anyone has any written questions, you can submit it for the 
record and get an answer for you, to do so by the close of 
business tomorrow. And again, thank you for being here. And 
with that, this hearing is adjourned.
    [Whereupon, at 11:23 a.m. the hearing was adjourned.]

                         Supplemental Material
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre></body></html>
